HHS/OIG, Audit - "Arkansas Physician Supplemental Payment Program,"
(A-06-06-00064)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Arkansas
Physician Supplemental Payment Program," (A-06-06-00064)
June 21, 2007
Complete
Text of Report is available in PDF format (265 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether
the supplemental payment by the Arkansas Department of Health and Human Services
(the State) to the University of Arkansas for Medical Sciences (the
University) for provider services was in accordance with the approved State plan
and was adequately supported.
Although the formula used to calculate the
supplemental payment was generally in accordance with the State plan, the
supplemental payment was not adequately supported.  Specifically, the average
commercial payment rate included noncommercial charges and duplicate commercial
charges and did not include some disallowances.  Additionally, the Medicaid
charges and payments used to determine the supplemental payment included
ineligible charges and payments.  As a result, the University overstated the
average commercial payment rate, and the State overstated Medicaid charges and
understated Medicaid payments.
We recommended that the State work with the Centers for Medicare and Medicaid
Services (CMS) to address the
weaknesses noted in the report related to the calculation of the supplemental
payment, which may require amending the State plan.  We also recommended that
any change in the average commercial payment rate be applied to the correct
Medicaid charges and payments for the audit period and that any excess payment
be refunded to the Federal Government.  The
State reported that it was in negotiations with CMS regarding the supplemental
payment.